           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION



         ADJUSTMENT OF
 OVERPAYMENT BALANCES RELATED
  TO TITLE II CRITICAL PAYMENTS

   January 2008   A-04-07-17028




 AUDIT REPORT
                                   Mission
By conducting independent and objective audits, evaluations and investigations,
we inspire public confidence in the integrity and security of SSA’s programs and
operations and protect them against fraud, waste and abuse. We provide timely,
useful and reliable information and advice to Administration officials, Congress
and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as
spelledout in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                    Vision
We strive for continual improvement in SSA’s programs, operations and
management by proactively seeking new ways to prevent and deter fraud, waste
and abuse. We commit to integrity and excellence by supporting an environment
that provides a valuable public service while encouraging employee development
and retention and fostering diversity and innovation.
                                       SOCIAL SECURITY
MEMORANDUM

Date:      January 22, 2008                                                         Refer To:

To:        The Commissioner

From:      Inspector General

Subject:   Adjustment of Overpayment Balances Related to Title II Critical Payments
           (A-04-07-17028)


           OBJECTIVE

           Our objective was to determine whether the Social Security Administration (SSA)
           properly adjusted overpayment balances after it issued certain Title II critical payments.
           Specifically, our work focused on critical payments made after SSA withheld all or part
           of a beneficiary’s monthly payment to recover a previous overpayment.

           BACKGROUND
           SSA administers the Old-Age, Survivors and Disability Insurance program under Title II
           of the Social Security Act, as amended. The Title II program provides monthly benefits
           to qualified retirees, survivors, and disabled individuals, as well as their eligible
           dependents. SSA’s goal is to issue these benefits timely and accurately. However,
           several factors affect a beneficiary’s payment amount or, potentially, their entitlement.
           For example, changes in a beneficiary’s earnings, marital status or disability could
           affect their benefit. When such events are not reported and processed timely or
           accurately, some beneficiaries receive more benefits than they are due and are
           “overpaid.”

           When SSA determines a beneficiary has been overpaid, it initiates recovery actions.
           SSA first sends the beneficiary written notification of the overpayment and offers the
           beneficiary several options to resolve the debt. For small overpayments, individuals
           may elect to have SSA collect the entire overpayment from the next month’s benefits.
           For larger debts, beneficiaries can have SSA deduct partial payments from ongoing
           monthly benefits. If the beneficiary disputes the overpayment, he or she can ask SSA
           to waive or reconsider it. Whichever option is chosen, the beneficiary must inform SSA
           of the decision within 30 days of receiving the overpayment notice. If the beneficiary
           does not notify SSA of his or her decision, the Agency will withhold the beneficiary’s
           entire monthly payment until the overpayment is recovered.
Page 2 - The Commissioner


Withholding all or a portion of a beneficiary’s monthly payment may cause a significant
financial hardship. As such, if a beneficiary contacts an SSA field office (FO) and can
                  1
prove a dire need for the withheld payment, SSA may issue the individual a critical
payment, an immediate payment, or both.

•   Critical payments are processed by an FO. 2 However, the U.S. Department of the
    Treasury actually issues the payment, similar to most monthly SSA benefit
    payments. Generally, the beneficiary receives the payment within 5 to 7 days by
    mail or direct deposit.

•   The FO issues the immediate payment to the beneficiary while he or she is present.
    The FO issues the individual a check from a supply maintained at their location.
    The immediate payment may not exceed $999, or the amount of benefits due the
    beneficiary, whichever is less.

Both types of payments are processed through SSA’s Critical Payment System (CPS)
and are collectively referred to as critical payments. The CPS automatically transmits
the beneficiary’s name, Social Security number, critical payment amount, date of
payment and reason for payment to one of SSA’s program service centers (PSC). The
PSC then assesses the critical payment to determine what action must be taken to
adjust for the payment. In cases where an FO issued a critical payment to pay benefits
withheld to collect an overpayment, the PSC must manually adjust the overpayment
record.

SSA’s Recovery of Overpayments, Accounting and Reporting (ROAR) 3 system controls
and maintains relevant information about the overpayments. When SSA withholds
monthly benefits to recover an overpayment, the corresponding overpayment on the
ROAR is automatically reduced. However, if SSA subsequently issues a critical
payment based on the beneficiary’s dire need, the PSC must complete a manual
action 4 to correct the ROAR. The action must increase the related overpayment
balance or create a new overpayment in the amount of the critical payment. Table 1
provides an example of events in this process and the related ROAR actions.


1
 A beneficiary can prove dire need by providing an eviction notice, utility cut-off notice, or proof of medical
expenses.
2
 SSA FOs process most of the critical payments issued. Certain employees at SSA teleservice centers
and PSCs have authority to process/issue critical payments.
3
 The ROAR system controls the recovery and collection activities related to Title II benefit overpayments.
For example, the ROAR contains information regarding the amount of the overpayment, the cause of the
overpayment, actions taken against the overpayment, amounts collected, and debts waived. The ROAR
can record more than one overpayment event per beneficiary.
4
 When SSA’s automated systems cannot process an action to update the ROAR, PSC staff must
manually process the action through the Manual Adjustment, Credit and Award Processes (MADCAP)
program. The Manual Adjustment Credit and Award Data Entry system, which contains a series of data
entry screens, is used to input information directly into the MADCAP program.
Page 3 - The Commissioner


       Table 1: Example of Events in Overpayment Recovery Actions Reviewed
        Date                                Event                        ROAR Action
  Calendar Year
                   A beneficiary receives monthly benefits of $750.           None
        2006
                                                                               $500
                   SSA determines the beneficiary has been overpaid
January 1, 2007                                                          Overpayment
                   $500.
                                                                            recorded
                   SSA sends the beneficiary a written notification of
February 1, 2007                                                              None
                   the $500 overpayment.
                                                                         Overpayment
                   SSA deducts $500 from the beneficiary’s April
April 2, 2007                                                            is reduced to
                   payment and applies it against the overpayment.
                                                                                $0
                   The beneficiary visits a local FO, proves a dire need
                   for benefits and requests SSA to replace the
                   $500 withheld. The beneficiary agrees to repay the
April 7, 2007      overpayment in $50 monthly installments–deducted           None
                   from his monthly benefits. The FO issues the
                   beneficiary a $450 immediate payment ($500 less
                   the $50 monthly installment).
                   CPS notifies the PSC that an immediate payment
                   has been issued and requires an adjustment. PSC             $450
April 25, 2007     staff manually correct the ROAR by recording a        Overpayment
                   $450 overpayment (the amount of the immediate            recorded
                   payment).
                                                                         Overpayment
   May 2, 2007     SSA deducts $50 from each of the beneficiary’s
                                                                           is reduced
      through      monthly payments and applies it to the
                                                                               from
 January 2, 2008 overpayment.
                                                                           $400 to $0

SCOPE AND METHODOLOGY
We selected critical payments recorded in SSA’s Payment History Update System
(PHUS) for which a benefit withholding was recorded on the ROAR system 90 days
before the payment. For the period August 1, 2002 through August 31, 2005, we
identified 72,883 critical payments that met our criteria. From our population of
72,883 critical payments, we randomly selected 250 payments to review. To avoid
selecting critical payments issued after Hurricanes Katrina and Rita, we did not consider
any critical payments the Agency made after August 31, 2005. 5




5
  Hurricanes Katrina and Rita struck the coastal regions of Alabama, Louisiana, Mississippi, and Texas on
August 29 and September 24, 2005, respectively. To accommodate the hurricane victims, SSA was more
flexible in issuing immediate payments. Because many immediate payments issued after the hurricanes
may not have followed normal procedures, we did not expand the scope of our audit beyond August 31,
2005.
Page 4 - The Commissioner


For each of the 250 sampled items, we determined whether the ROAR overpayment
balance was properly increased to account for the critical payment. We considered an
overpayment balance to be in error when it was (1) not adjusted or (2) adjusted
incorrectly. We did not determine whether the FO personnel issued the critical payment
appropriately or whether the overpayment balance before the critical payment was
accurate.

SSA reviewed the critical payments we identified as errors. In general, SSA agreed
that the overpayment balance in ROAR had not been properly adjusted to account for
the critical payment. SSA agreed the necessary actions were not taken to record the
resulting overpayment. SSA took corrective action on each of our error cases. In some
cases, however, SSA’s corrective action included adjustments unrelated to our audit
objective. In these cases, we only considered the amount of the critical payment to be
in error. Further information regarding our scope and methodology as well as our
sampling methodology is in Appendices B and C.

RESULTS OF REVIEW

SSA did not always adjust overpayment balances when it issued certain critical
payments. In special need situations, SSA agreed to issue critical payments to
individuals whose benefits had been withheld to repay an earlier SSA overpayment.
However, these critical payments effectively refunded the beneficiaries’ payment on the
SSA debt—causing another overpayment. For 73 (29 percent) of the 250 critical
payments reviewed, SSA did not adjust the ROAR to account for the related
overpayment. As a result, SSA did not record $48,162 in overpayments. In total, we
estimate that SSA did not account for approximately 21,282 overpayments totaling
about $14.0 million from August 1, 2002 to August 31, 2005 (see Appendix C).

In another seven instances, SSA either incorrectly adjusted the related overpayment or
created a new overpayment in the wrong amount. The seven adjustment errors totaled
$3,034. For six of the seven cases, the adjustments caused the ROAR overpayment
balance to be overstated. Over time, SSA would have improperly collected the excess
overpayments from the beneficiaries.

We believe the PSCs did not always recognize and record these overpayments
because the information provided by CPS did not prompt staff to make the needed
adjustment. Additionally, controls could be improved at the PSCs to ensure responsible
personnel identify and properly adjust these types of overpayments in the future.
Page 5 - The Commissioner


OVERPAYMENT BALANCES WERE NOT ADJUSTED
TO ACCOUNT FOR THE CRITICAL PAYMENT

For 73 (29 percent) of the 250 critical payments we reviewed, SSA did not adjust the
ROAR to account for the resulting overpayment. In total, SSA did not record $48,162 in
overpayments that individually ranged up to $1,943. We estimate that SSA did not
account for approximately 21,282 overpayments totaling about $14.0 million from
August 1, 2002 to August 31, 2005. See Appendix C for our projection methodology.

In certain dire need situations, SSA issued critical payments to individuals whose
benefits were withheld to repay a previous SSA overpayment. In doing so, the critical
payments effectively returned the beneficiaries’ payment on the existing SSA debt—
causing another overpayment. To account for this overpayment, PSC staff must take a
manual action to record the overpayment on the ROAR. However, PSC staff did not
always do so. To ensure future overpayments related to critical payments are identified
and properly adjusted, better information is needed from the CPS and controls should
be improved at the PSCs.

PSCs Need Better Information from the CPS

For 21 of the 73 (29 percent) critical payments that caused an overpayment, FO staff
did not indicate in CPS an overpayment was involved. When a critical payment is
processed through CPS, the system alerts a PSC of the event. Technicians in PSCs
are responsible for reviewing the appropriateness of critical payments and making
necessary system adjustments. To process or clear the alert, PSC staff must adjust
CPS to account for the critical payment. In other words, PSC staff must tell CPS that
the resulting overpayment will be recovered from ongoing benefits or no further action is
necessary.

Our sample of critical payments, in effect, refunded benefits that were withheld to
collect an overpayment—causing another overpayment. Consequently, PSC staff
should have reestablished the overpayment to enable future collection. However,
because SSA issues critical payments for various reasons and not all critical payments
impact an overpayment, PSCs cannot always readily identify which alerts require a
ROAR adjustment. 6 As such, PSC staff must rely on information FO staff record in
CPS to determine whether an overpayment is involved. Typically, PSC staff rely on the
explanation recorded in the Nature of Problem Field (NPF).

    Vague Explanations     The NPF is a text field in which FO staff should type
    Caused Additional      comments justifying the critical payment and provide any
                           additional information relevant to the case. The amount and
    Work for PSC Staff
                           type of information contained in the explanation is at the
                           author’s discretion. We understand the NPF provides a
mechanism for staff to record information unique to each case. However, the
6
 For example, a critical payment may be issued when a benefit check was undeliverable, or an SSA
system error delayed or stopped benefit payments.
Page 6 - The Commissioner


information in the NPF is ultimately subject to the PSC staffs’ interpretation. If the NPF
explanation is vague, the burden falls on PSC staff to further research the issue. The
adjustment to the ROAR may not occur when the NPF does not mention, or is vague as
to an overpayment, unless PSC staff takes additional time to investigate the matter.

For example, in one case, the NPF field did not mention the critical payment involved
an overpayment. The NPF stated “need income for monthly expenses.” In this case,
the beneficiary’s full monthly benefit of $1,389 was withheld to recover an overpayment.
Shortly after the benefits were withheld, SSA issued a $1,389 critical payment to
replace the benefits because the beneficiary proved a dire need for money to pay for
monthly living expenses. However, we found no evidence in the ROAR that SSA
adjusted the related overpayment to indicate that the beneficiary still owed the $1,389.
Instead, the ROAR indicated the overpayment was closed, and no further collection
actions were required. SSA agreed that the ROAR was not adjusted to account for the
overpayment resulting from the CPS. Subsequently, SSA took corrective action to
recover the critical payment by posting a $1,389 overpayment on the ROAR.

Critical payments are issued for various reasons, and not all critical payments involve
an overpayment. To ensure PSC staff identifies overpayments, we believe CPS should
be modified to include an indicator (such as a code) that specifies an overpayment is
involved and may require a ROAR adjustment. The indicator should then be included in
the alert information provided to the responsible PSC.

PSC Controls Should be Improved

For 52 (71 percent) of the 73 error cases, FO personnel did annotate in the NPF that an
overpayment was involved. When the NPF indicates an overpayment is involved, PSC
staff should recognize that an action in addition to the usual CPS adjustment to adjust
the ROAR for the overpayment is needed. However, in these 52 cases, PSC personnel
did not take the appropriate actions to account for the overpayment. Although the CPS
indicated the appropriate adjustments were made to account for the critical payment,
the PSC staff failed to correct the ROAR.

                            Critical payment alerts are part of the PSC’s workload. To
CPS Alerts Were             process or clear the alerts, the PSC staff must only adjust the
Cleared Without             CPS to account for the critical payment transaction.
Properly Adjusting          Effectively, the adjustment shows the PSCs determined that
Overpayment                 (1) an overpayment occurred but has been properly
Balances                    accounted or (2) the critical payment did not cause an
                            overpayment and no further action is needed. Either decision
eliminates the alert from the workload. However, if an overpayment is involved and
requires a ROAR adjustment, the existing controls do not ensure the adjustment is
made.

At the time of our audit, PSC managers were not receiving information that detailed the
critical payment alerts involving an overpayment. As discussed earlier, we suggested
Page 7 - The Commissioner


that CPS include an indicator regarding overpayment involvement. The indicator would
be included in the alert. Also, PSC managers could receive a list of the critical
payments that require a ROAR adjustment. With this information, they could
periodically review a sample of actions taken to ensure the accuracy of this workload.

SOME ADJUSTMENTS MADE TO THE ROAR WERE INCORRECT

We also identified seven instances in which SSA incorrectly adjusted the ROAR to
account for a critical payment. In these cases, SSA either inaccurately adjusted the
related overpayment or created a new overpayment in the wrong amount. The seven
adjustment errors totaled $3,034. In six of the seven cases, the adjustments caused
the ROAR overpayment balance to be overstated.

In one case, SSA only posted a $350 overpayment to the beneficiary’s ROAR instead
of the $461 that was required. The beneficiary’s entire monthly benefit of $865 was
withheld to reduce an existing overpayment. The beneficiary subsequently expressed a
dire need for benefits. SSA issued a critical payment of $461—$865 less $350 for
overpayment recovery and $54 for supplemental medical insurance. However, instead
of reinstating an overpayment of $461, SSA mistakenly posted a $350 overpayment.
SSA agreed the adjustment was incorrect and took corrective action to show the
additional $111 overpayment.

In the remaining six cases, SSA posted excess overpayments to account for the critical
payments. In total, the beneficiaries would have repaid $2,923 more than what was
owed to SSA. Table 2 details the six cases in which SSA reinstated an excess amount
of overpayment. Based on our review, SSA initiated corrective action to return the
additional benefits that were erroneously withheld or to correct the overpayment
balance.
                      Table 2: Excess Overpayment Adjustments
                           Critical    Overpayment           Excess
                          Payment       Adjustment       Overpayment
                          Amount          Amount            Amount
                   1         $597.00           $1,526            $929.00
                   2        1,053.00         1,910.20             857.20
                   3          754.00           754.00             754.00
                   4          665.00           865.00             200.00
                   5          513.00           629.60             116.60
                   6          675.00           741.60              66.60
                                                Total         $2,923.40

For Item 1, SSA withheld the beneficiary’s entire monthly benefit of $647 to recover a
$1,576 overpayment. Because the Title II benefit was the only source of income, the
beneficiary claimed a dire need for money to pay rent and buy food. Accordingly, SSA
issued a $597 critical payment. SSA withheld $50 from the payment as an offset
against the overpayment. SSA subsequently posted a new overpayment to the ROAR
to account for the critical payment. However, SSA posted a new overpayment of
Page 8 - The Commissioner


$1,526 (the original overpayment amount less the $50 partial recovery) instead of the
$597 critical payment amount. As a result, a $929 excess overpayment was recorded
and collected. SSA agreed with our analysis and has returned the $929 to the
beneficiary.

For Item 3, SSA initially withheld the beneficiary’s entire $886 monthly benefit to
recover an existing $69 overpayment. Because SSA withheld more benefits than
needed to recover the overpayment, SSA issued the beneficiary a $754 critical payment
(net the $69 overpayment and the supplement medical insurance). However, SSA then
mistakenly created a new $754 overpayment to recover the critical payment. As a
result, the beneficiary had an erroneous $754 overpayment placed on his record. SSA
has corrected the overpayment record.

CONCLUSION AND RECOMMENDATIONS
SSA did not always reinstate overpayments after certain Title II critical payments were
issued. In dire need cases, SSA issued critical payments to pay benefits that had been
withheld to collect an overpayment. Because the overpayment balance was reduced
before the critical payment, SSA should have corrected the ROAR to reflect the reversal
of a benefit withholding. In short, SSA should have increased the overpayment by the
amount of the critical payment.

The PSCs are responsible for adjusting the CPS for the critical payment transaction
and when necessary, correcting the ROAR. Because critical payments are issued for
various reasons, PSCs must rely on information FO staff record in CPS. However, the
FO explanations did not always explain that the critical payment involved an
overpayment. Also, to our concern, some overpayments were not recorded to the
ROAR, even when the FO explanation adequately detailed an overpayment was
involved. We determined that PSC managers did not have information that specifically
flagged overpayment-related transactions. As such, CPS could be adjusted to account
for a critical payment transaction, and the alert cleared from the PSC workload, without
the necessary ROAR adjustment. We believe improved controls would help ensure
that the necessary ROAR adjustments are made. Accordingly, we recommend SSA
take the following actions.

1. Modify the CPS to include an indicator (such as a code) that specifies a critical
   payment was issued to replace an overpayment benefit withholding. The new code,
   like the NPF field, should be included in the alert information provided to the PSCs.
   In practice, the new code should enable PSC staff to recognize that a ROAR
   adjustment is probably needed.

2. Modify the Manual Adjustment Credit and Award Data Entry system to ask PSC staff
   whether the critical payment adjustment also requires an action to account for an
   overpayment. PSC staff should be prevented from processing the action until this
   question is answered.
Page 9 - The Commissioner


3. Until the previous system modifications are made, require CPS users to include a
   standardized entry in the NPF when a critical payment was issued to replace an
   overpayment benefit withholding. This language should alert PSC personnel that a
   ROAR adjustment may be needed for the overpayment.

4. Until the previous system modifications are made, issue a reminder to PSC staff
   outlining actions required to properly adjust the ROAR when critical payments are
   issued to replace an overpayment benefit withholding.

5. Periodically perform a supervisory review on a sample of completed CPS alerts with
   overpayment indicators. The review should ensure overpayments were properly
   adjusted.

AGENCY COMMENTS AND OIG RESPONSE

SSA generally agreed with four of our five recommendations. The Agency agreed with
our first recommendation but qualified its concurrence by stating information technology
resources are not available to make the recommended system change. SSA disagreed
with our second recommendation. SSA stated that, in addition to limited information
technology resources, continually placing prompts and alerts in automated workload
paths leads to user overload, which eventually mitigates the benefit of the added
control. Further, the Agency believes implementing the other non-system related
recommendations will improve the accuracy in processing the critical payment
workload.

Although we acknowledge SSA’s workloads are competing for limited resources, we
believe SSA should consider the information technology-related recommendations in
future system enhancements as resources become available. Moreover, regarding
Recommendation 2, we believe the recommended system prompt would be beneficial
to users as a visual reminder to consider necessary overpayment adjustments.




                                               Patrick P. O’Carroll, Jr.
                                     Appendices
APPENDIX A – Acronyms

APPENDIX B – Scope and Methodology

APPENDIX C – Sampling Methodology and Results

APPENDIX D – Agency Comments

APPENDIX E – OIG Contacts and Staff Acknowledgments
                                                         Appendix A

Acronyms
CPS      Critical Payment System
FO       Field Office
MADCAP   Manual Adjustment, Credit and Award Processes
NPF      Nature of Problem Field
OIG      Office of the Inspector General
PHUS     Payment History Update System
PSC      Program Service Center
ROAR     Recovery of Overpayments, Accounting and Reporting
SSA      Social Security Administration
                                                                                    Appendix B

Scope and Methodology
To accomplish our objective, we first identified Title II critical payments that were issued
to replace benefits that were withheld to recover an overpayment. 1 To do so, we
selected critical payments recorded in the Social Security Administration’s (SSA)
Payment History Update System (PHUS) for which a benefit withholding was recorded
on the Recovery of Overpayments, Accounting and Reporting (ROAR) system 90 days
before the payment. For the period August 1, 2002 through August 31, 2005, we
identified 72,883 critical payments that met our criteria. From our population of
72,883 critical payments, we randomly selected 250 payments for testing.

For each of the 250 sampled items, we determined whether the ROAR overpayment
balance was properly adjusted (increased) to account for the critical payment. We
considered an overpayment balance to be in error when the overpayment balance was
(1) not adjusted or (2) adjusted incorrectly.

Our review did not test to determine whether (1) the issuance of the critical payment
was appropriate or (2) the overpayment balance before the critical payment was
accurate.

To avoid selecting critical payments issued after Hurricanes Katrina and Rita, we did
not consider any critical payments the Agency made after August 31, 2005. 2 In our
September 2006 report, The Social Security Administration’s Service Delivery to
Individuals and Beneficiaries Affected by Hurricanes Katrina and Rita (A-06-06-26072),
we discussed how the mass evacuation and relocation of residents from the affected
areas made it difficult for SSA beneficiaries to receive their benefit checks or even
access benefits that were direct deposited. To better serve its customers during this
challenging time, SSA was more flexible in issuing immediate payments. As expected,
the number of critical payments issued in the months following the hurricanes increased
dramatically. Knowing that many immediate payments issued after Hurricanes Katrina
and Rita may not have followed normal procedures, we did not expand the scope of our
audit beyond August 31, 2005.




1
 SSA processes both immediate payments and critical payments through their Critical Payment System.
Both types of payments are similarly accounted for on the PHUS, and are generally referred to as critical
payments.
2
  Hurricane Katrina and Rita struck the coastal regions of Alabama, Louisiana, Mississippi, and Texas on
August 29, 2005 and September 24, 2005, respectively. Approximately 1 million beneficiaries and
recipients receiving approximately $700 million in monthly benefit payments were affected.


                                                   B-1
We requested SSA review the critical payments we identified as errors—those for which
the Agency had not properly adjusted the overpayment balance in the ROAR. In
general, SSA agreed that a corrective action was required on each of our error cases to
record the unrecognized overpayment.

In some cases, SSA’s corrective actions included adjustments for events that were
unrelated to the sampled critical payment. As a result, SSA’s corrective action may not
have equaled the amount of the critical payment. In these cases we only considered
the amount of the critical payment in error.

We also:

•   Reviewed relevant laws and SSA’s policies and procedures pertaining to the Title II
    program, issuing critical payments, and accounting for overpayments.

•   Reviewed previous Office of the Inspector General reports pertaining to critical
    payments.

•   Interviewed SSA personnel to obtain an understanding of the procedures for
    processing a request for a critical payment and the subsequent actions needed to
    account for the resulting overpayment.

•   Queried SSA’s PHUS, Critical Payment System, the Retirement, Survivors, and
    Disability Insurance Payment History and Worksheet; the Master Beneficiary
    Record; and the Online Retrieval System.

Our review of internal controls was limited to obtaining an understanding of SSA’s
procedures and controls for adjusting the ROAR to account for overpayments resulting
from Critical Payment System payments issued to replace benefits withheld to recover
an overpayment. We generally relied on data obtained from the ROAR and PHUS. We
determined these data were sufficiently reliable to satisfy our audit objectives.

The SSA entity audited was the Office of Operations. We conducted the audit between
December 2006 and June 2007 in Atlanta, Georgia, and the Southeastern Program
Service Center in Birmingham, Alabama. We conducted this performance audit in
accordance with generally accepted government auditing standards. Those standards
require that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our audit
objectives. We believe the evidence obtained provides a reasonable basis for our
findings and conclusions based on our audit objectives.




                                           B-2
                                                                       Appendix C

Sampling Methodology and Results
Sampling Methodology
We reviewed a random sample of 250 Title II critical and immediate payments,
(collectively referred to as critical payments) issued to replace benefits that were
withheld to recover an overpayment. We selected our sample from a universe of
72,883 Title II critical and immediate payments that met our selection criteria during the
period August 1, 2002 through August 31, 2005. We considered an immediate and
critical payment processed in the same day as one sample unit.

Critical payments are issued for various reasons. Our sampling methodology was
designed to select only those critical payments issued to replace an overpayment
benefit withholding that occurred within 90 days before the critical payment. Our
sample included 19 critical payments that met our selection criteria, but our audit tests
determined the critical payment was issued for a reason other than to replace an
overpayment benefit withholding. We deemed the cases to be correct.

Sampling Results

Overall Results - Critical Payments Not Recovered via an Overpayment
Adjustment – Resulting in Unrecognized Overpayments

                            Attribute Appraisal Projections

 Population and Sample Data                             Number of Critical Payments
 Total Population                                                    72,883
 Sample Size                                                          250
 Critical Payments Not Recovered via an
 Overpayment Adjustment – Resulting in                                 73
 Unrecognized Overpayments
 Projection to Population                               Number of Critical Payments
 Lower Limit                                                         17,843
 Point Estimate                                                      21,282
 Upper Limit                                                         24,992




                                           C-1
                           Variable Appraisal Projections
                                                            Dollar Value of
 Population and Sample Data
                                                           Critical Payments
 Sample Dollars                                                           $176,660
 Sample Dollars Not Recovered via an
 Overpayment Adjustment – Resulting in                                        $48,162
 Unrecognized Overpayments
                                                            Dollar Value of
 Projection to Population
                                                           Critical Payments
 Lower Limit                                                           $11,306,644
 Point Estimate                                                        $14,040,881
 Upper Limit                                                           $16,775,118

Note: All projections were made at the 90-percent confidence level.




                                          C-2
                  Appendix D

Agency Comments
                                        SOCIAL SECURITY

MEMORANDUM


Date:     January 7, 2008                                                       Refer To:   S1J-3

To:       Patrick P. O'Carroll, Jr.
          Inspector General

From:     David V. Foster /s/
          Chief of Staff

Subject   Office of the Inspector General (OIG) Draft Report, "Adjustment of Overpayment Balances
          Related to Title II Critical Payments" (A-04-07-17028)--INFORMATION


          We appreciate OIG’s efforts in conducting this review. Our response to the report findings and
          recommendations are attached.

          Please let me know if we can be of further assistance. Staff inquiries may be directed to
          Ms. Candace Skurnik, Director, Audit Management and Liaison Staff, at extension 54636.

          Attachment:
          SSA Response




                                                        D-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL (OIG) DRAFT
REPORT, "ADJUSTMENT OF OVERPAYMENT BALANCES RELATED TO TITLE II
CRITICAL PAYMENTS" (A-04-07-17028)


Thank you for the opportunity to review and comment on the draft report. In recent years we
have launched many initiatives to automate workloads and improve workload controls. Quality
staff in headquarters and the regions monitor workloads prone to error, including this Critical
Payment System (CPS) workload. We acknowledge that improved controls and better
automation could benefit the workload interaction between critical payments and overpayments;
however, competition for Information Technology (IT) resources is very keen and we do not
anticipate additional resources becoming available to make the recommended modifications to
the CPS. We will, however, take action to improve accuracy by adopting the recommendations
that require fewer resources and are likely to result in improved quality when making critical
payments on cases with prior overpayments. Our responses to the specific recommendations are
provided below:

Recommendation 1

The Social Security Administration (SSA) should modify the CPS to include an indicator (such
as a code) that specifies a critical payment was issued to replace an overpayment benefit
withholding. The new code, like the Nature of Problem Field (NPF), should be included in the
alert information provided to the Payment Service Centers (PSC). In practice, the new code
should enable PSC staff to recognize that a Recovery of Overpayments Accounting and
Reporting System (ROAR) adjustment is probably needed.

Response

We agree that an indicator code notifying the PSCs that a critical payment was issued to replace a
check collected towards an overpayment could be useful. However, implementation of this alert
would require systems resources which are not available at this time. We believe that
implementation of some of the other recommendations will accomplish the same result without
expending our very limited IT resources.

Recommendation 2

SSA should modify the Manual Adjustment Credit and Award Data Entry system to ask PSC
staff whether the critical payment adjustment also requires an action to account for an
overpayment. PSC staff should be prevented from processing the action until this question is
answered.

Response

We disagree. It has been our experience that continually placing questions, prompts and alerts in
automated workload paths can lead to user overload which eventually leads to these prompts


                                               D-2
being ignored hence losing their effectiveness. However, we believe implementation of the other
non IT resource related recommendations will improve agency accuracy in processing the
CPS/overpayment workload.

Recommendation 3

Until the previous system modifications are made, SSA should require CPS users to include a
standardized entry in the NPF when a critical payment was issued to replace an overpayment
benefit withholding. This language should alert PSC personnel that a ROAR adjustment may be
needed for the overpayment.

Response

We agree. We will create standardized language for use in the NPF to alert PSC staff that a
critical payment was issued when the original payment was collected toward an overpayment.

Recommendation 4

Until the previous system modifications are made, issue a reminder to PSC staff outlining actions
required to properly adjust the ROAR when critical payments are issued to replace an
overpayment benefit withholding.

Response

We agree. We will issue a reminder to PSC staff, by March 31, 2008, giving workload
guidelines to assist them in correctly processing this type of workload action.

Recommendation 5

Periodically perform a supervisory review on a sample of completed CPS alerts with
overpayment indicators. The review should ensure overpayments were properly adjusted.

Response

We agree. Currently some regions and PSCs pull random samples of critical payment actions
and review them for correct processing. We will specifically ask for periodic reviews targeting
those CPS alerts where overpayments are also involved.




                                               D-3
                                                                      Appendix E

OIG Contacts and Staff Acknowledgments
OIG Contacts

   Kimberly A. Byrd, Director, Southern Audit Division, (205) 801-1650

   Frank Nagy, Audit Manager, (404) 562-5552

Acknowledgments

In addition to those named above:

   Teaketa Turner, Senior Auditor

   Luis Ramirez, Program Analyst

   Charles Lober, Information Technology Specialist

For additional copies of this report, please visit our web site at
www.socialsecurity.gov/oig or contact the Office of the Inspector General’s Public
Affairs Specialist at (410) 965-3218. Refer to Common Identification Number
A-04-07-17028.
                           DISTRIBUTION SCHEDULE

Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Committee on the Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Oversight and Government
Reform
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security Pensions
and Family Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
               Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of our Office of Investigations (OI),
Office of Audit (OA), Office of the Chief Counsel to the Inspector General (OCCIG), and Office
of Resource Management (ORM). To ensure compliance with policies and procedures, internal
controls, and professional standards, we also have a comprehensive Professional Responsibility
and Quality Assurance program.
                                         Office of Audit
OA conducts and/or supervises financial and performance audits of the Social Security
Administration’s (SSA) programs and operations and makes recommendations to ensure program
objectives are achieved effectively and efficiently. Financial audits assess whether SSA’s
financial statements fairly present SSA’s financial position, results of operations, and cash flow.
Performance audits review the economy, efficiency, and effectiveness of SSA’s programs and
operations. OA also conducts short-term management and program evaluations and projects on
issues of concern to SSA, Congress, and the general public.


                                    Office of Investigations
OI conducts and coordinates investigative activity related to fraud, waste, abuse, and
mismanagement in SSA programs and operations. This includes wrongdoing by applicants,
beneficiaries, contractors, third parties, or SSA employees performing their official duties. This
office serves as OIG liaison to the Department of Justice on all matters relating to the
investigations of SSA programs and personnel. OI also conducts joint investigations with other
Federal, State, and local law enforcement agencies.


                   Office of the Chief Counsel to the Inspector General
OCCIG provides independent legal advice and counsel to the IG on various matters, including
statutes, regulations, legislation, and policy directives. OCCIG also advises the IG on
investigative procedures and techniques, as well as on legal implications and conclusions to be
drawn from audit and investigative material. Finally, OCCIG administers the Civil Monetary
Penalty program.
                              Office of Resource Management
ORM supports OIG by providing information resource management and systems security. ORM
also coordinates OIG’s budget, procurement, telecommunications, facilities, and human
resources. In addition, ORM is the focal point for OIG’s strategic planning function and the
development and implementation of performance measures required by the Government
Performance and Results Act of 1993.
